           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    THE SOCIAL SECURITY NUMBER
       APPLICATION PROCESS


      April 2011   A-08-11-11121




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:      April 15, 2011                                                Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Number Application Process (A-08-11-11121)


           OBJECTIVE
           Our objective was to determine the effectiveness of the Social Security Number
           Application Process (SSNAP) in enhancing compliance with Social Security
           Administration (SSA) policies and procedures for assigning Social Security numbers
           (SSN).

           BACKGROUND
           SSNAP is the Agency’s Web-based Intranet application for taking original and
           replacement SSN card applications at field offices. SSA began phasing in SSNAP in
           August 2009 and fully implemented this process in February 2010. SSNAP combines
           the functionality of two prior systems: the SS-5 Assistant and the Modernized
           Enumeration System. SSA developed SSNAP to help reinforce Agency enumeration
           policies and standardize data collection.

           SSA generally requires that applicants for original SSNs provide acceptable
           documentary evidence of (1) age, (2) identity, and (3) citizenship or lawful noncitizen
           status. 1 At the beginning of each in-person interview, field office personnel inform
           applicants that they will use the answers to questions asked to process their application.
           Personnel then enter information into SSNAP, which provides drop-down menus and
           policy reminders to facilitate the process. Field office personnel verify documents
           through a variety of methods, including visual inspection and verification with other
           organizations. To verify noncitizens’ immigration status, SSNAP forwards information
           electronically to the Department of Homeland Security’s (DHS) Systematic Alien
           Verification for Entitlements Program. At the end of the interview, field office personnel
           ask applicants to review a printed copy of the application and attest to the truthfulness
           of their answers. After determining the validity of supporting evidentiary documents,
           personnel clear the application and destroy the printout and any copies of documents.
           Once certified and cleared, SSNAP’s batch system performs numerous automated edits
           1
               SSA, POMS, RM 10210.020 (March 22, 2010).
Page 2 - The Commissioner


to validate certain applicant information. If the application passes these edits, SSA
systems assign an SSN, issue an SSN card, and establish a record in SSA’s
information systems.

To accomplish our objective, we reviewed SSA’s policies and procedures for processing
original SSNs. To evaluate field office compliance with these policies and procedures,
we identified a population of 344,422 original SSNs assigned by SSA from April through
June 2010. We then reviewed a random sample of 50 SSNs. We also contacted eight
field offices and two Social Security Card Centers in nine SSA regions and the
International Benefits Office at SSA Headquarters. We limited our review to an
assessment of SSNAP as it related to the Agency’s documentation requirements for
original SSNs. Appendix B includes a detailed description of our scope and
methodology.

RESULTS OF REVIEW
SSNAP was generally effective in enhancing field office compliance with policies and
procedures for assigning original SSNs. Field office personnel with whom we spoke
told us that SSNAP was user-friendly and helped them obtain acceptable evidentiary
documents when processing original SSN applications. While we acknowledge that our
limited review did not disclose any significant problems with SSNAP, we identified
several areas where we believe SSA could further enhance SSNAP to improve the
integrity of the SSN assignment process.

We noted that SSNAP did not always ensure compliance with SSA enumeration policies
and procedures. For example, in certain instances, we determined that SSNAP allowed
field office personnel to process original SSN applications with conflicting
documentation. Additionally, we determined that SSNAP allowed field office personnel
to process original SSN applications without meeting all secondary identity evidence
requirements. We also determined that field office personnel did not always document
that no other evidence was available when processing original SSN applications for
refugees with only an immigration document, as required by SSA policy. 2 We
acknowledge this is a documentation issue and the effect of noncompliance is difficult to
measure. However, if SSA believes this policy is critical in ensuring proper SSN
assignment, it should establish systems controls to ensure compliance. If not, SSA
should reassess its policy accordingly.




2
    SSA, POMS, RM 10210.020 D (March 22, 2010).
Page 3 - The Commissioner


Field Office Personnel Can Process Original SSN Applications with Certain Types
of Conflicting Documentation

SSA policy requires that field office personnel compare the information on documents
submitted by applicants for original SSNs and reconcile any discrepancies. 3 However,
we determined that field office personnel could process original SSN applications with
certain conflicting documentation. Specifically, we identified one instance in which a
field office processed an original SSN application for a noncitizen (H-2B worker), 4 and
staff documented they used a U.S. passport as proof of age. Because a U.S. passport
conflicted with the applicant’s immigration status, we requested the Department of State
determine its validity. The Department of State found that it was not a valid
U.S. passport and told us it appeared consistent with passports issued by the
applicant’s country of birth. As such, we believe the field office incorrectly coded a
foreign passport as a U.S. passport.

Additionally, our systems tests confirmed that SSNAP allowed field office personnel to
enter a U.S. passport as evidence of age when the applicant was a noncitizen (for
example, a J-1 exchange visitor or F-1 foreign student). 5 We also determined that
SSNAP did not generate a message to alert field office personnel when they entered an
applicant’s age and/or identity information that conflicted with their immigration status.

We believe SSA would benefit from enhancing SSNAP to identify instances in which
field office personnel enter an applicant’s age and/or identity information that conflicts
with their immigration status. For example, SSA could add an alert in SSNAP that
would inform field office personnel when this occurs. That is, SSNAP could identify
instances in which field office personnel either document conflicting information or
incorrectly code an application. In either situation, SSNAP could alert field office
personnel to the discrepancy and ask if they wish to continue processing the
application. Some field office and Headquarters personnel with whom we spoke
generally agreed that adding such an alert would help prevent improper SSN
assignment and reduce coding errors.




3
    SSA, POMS, RM 10210.020 (March 22, 2010) and RM 10210.210 (December 30, 2010).
4
 DHS assigns the nonimmigrant classification of “H-2B” to noncitizens approved for temporary
non-agricultural work.
5
  DHS assigns the nonimmigrant classification of “F-1” to approved noncitizen students enrolled at
accredited schools and “J-1” to exchange visitors who participate in an approved program, such as
teaching or serving as a camp counselor.
Page 4 - The Commissioner


Field Office Personnel Can Process SSN Applications Without Meeting Secondary
Identity Evidence Requirements

In response to the Intelligence Reform and Terrorism Prevention Act of 2004 6 and its
own efforts to ensure SSN integrity, SSA revised its policies and procedures for
assigning original SSNs. In particular, SSA increased the identity requirements for
obtaining an original SSN. In most cases, applicants must present certain valid
identification documents of high probative value 7 to prove their identity. Although
SSNAP contains extensive controls to guide SSA employees through the complex
enumeration process, we identified one area where SSA could strengthen controls.
Specifically, we determined that SSNAP allowed field office employees to process
original SSN applications without meeting all secondary identity evidence requirements.

SSA policy requires that field office personnel obtain identity documents with the highest
probative value (for example, a driver’s license or U.S. passport). If a primary document
is not available, 8 field office personnel must request secondary evidence (for example,
health insurance or employee identification badge). Additionally, SSA policy requires
that secondary identity documents meet specific criteria, including combinations of an
issue or expiration date or photograph. 9 Secondary identity documents with no issue or
expiration date or photograph are not acceptable. However, we determined that field
office personnel can process original SSN applications without meeting these
requirements. For example, some field office personnel with whom we spoke told us
they can use a health insurance or employee identification badge as proof of identity
even if the document does not have an issue or expiration date or photograph.

To ensure proper SSN assignment, we believe it is important that SSA take appropriate
measures to ensure individuals are who they claim to be. As such, we believe SSA
should continue SSNAP enhancements that would help enforce secondary evidence of
identity requirements. For example, SSA could add drop-down menus in SSNAP to
help field office personnel determine whether secondary identity documents meet
evidence requirements. That is, when field office personnel select a secondary
U.S. identity document, such as a health insurance card with only an issue date, a
drop-down menu would appear for staff to check whether it is unexpired and less than
2 years old for an adult (or less than 4 years old for a child). If field office personnel do
not check this box, SSNAP should prevent them from processing the application. Some
field office personnel we contacted generally agreed that adding drop-down menus
would assist them in complying with policies and procedures. A representative from the



6
 Pub. L. No. 108-458, Title VII, Section 7213, Social Security Cards and Numbers, codified at
42 U.S.C. § 405 note.
7
    The probative value of a document relates to the proof of evidence it provides.
8
    Available means the document exists and can be accessed or obtained within 10 business days.
9
    SSA, POMS, RM 10210.405 (November 8, 2010) and RM 10210.420 (November 22, 2010).
Page 5 - The Commissioner


Office of Enumeration and Medicare Policy told us the Office of Systems is considering
SSNAP enhancements that would help enforce secondary evidence of identity
requirements.

Field Office Personnel Did Not Routinely Document That No Other Evidence Was
Available When Processing Original SSN Applications for Refugees

SSA policy requires that field office personnel annotate the “Remarks” field on the
SSNAP summary screen with “NO OTHER EVIDENCE AVAILABLE” when a refugee,
parolee, asylee, or victim of a severe form of trafficking has only an immigration
document as evidence of age, identity, and lawful noncitizen status. 10 However, in all
three refugee cases we reviewed involving one document, field office personnel did not
comply with this procedure. 11 We acknowledge this is a documentation issue, and it is
difficult to measure the effect of noncompliance. Additionally, our systems tests showed
that SSNAP neither generated an alert to prompt field office personnel to enter that no
other evidence was available in the “Remarks” field nor prevented personnel from
processing such SSN applications when employees failed to do so. Most field office
personnel we contacted were not aware of the policy requirement and generally agreed
that adding such an alert would assist them in complying with policies and procedures.
If SSA believes this policy is critical in ensuring proper SSN assignment, we believe it
should establish a systems control to ensure compliance. If not, SSA should reassess
its policy accordingly.

We encourage SSA to identify other areas where policies and procedures require field
office personnel to annotate the “Remarks” field and add similar alerts (if SSA believes
such policies are critical to proper SSN assignment) to ensure compliance. For
example, SSA policy requires that field office personnel annotate the “Remarks” field on
the SSNAP summary screen when they verify a birth certificate via the Electronic
Verification of Vital Events system. 12




10
     Ibid, Footnote 2.
11
     We did not review any cases involving parolees, asylees, or victims of a severe form of trafficking.
12
   SSA, POMS, GN 00302.980 D.4 (October 5, 2010). The Electronic Verification of Vital Events system
is an automated data exchange between a State vital records agency and SSA for providing authorized
personnel access to request and receive verifications of birth from the State where the event occurred.
Page 6 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
We commend SSA for developing SSNAP to help reinforce Agency policies and
standardize data collection. However, as SSA continues to enhance SSNAP, we
believe SSA would benefit by taking additional steps to strengthen SSN integrity and
reduce its risk of exposure to improper SSN assignment. Accordingly, we recommend
that SSA:

1. Enhance SSNAP to identify instances in which field office personnel enter an
   applicant’s age and/or identity information that conflicts with their immigration status.
   For example, SSA could add an alert in SSNAP that would inform field office
   personnel when this occurs.

2. Continue SSNAP enhancements that would help enforce secondary evidence of
   identity requirements. For example, SSA could add drop-down menus in SSNAP to
   help field office personnel determine whether secondary identity documents meet
   SSA evidence requirements.

3. Determine whether requiring annotation in SSNAP’s “Remarks” field with “NO
   OTHER EVIDENCE AVAILABLE” when a refugee, parolee, or victim of a severe
   form of trafficking has only an immigration document as evidence of age, identity,
   and lawful noncitizen status is essential to the enumeration process. If so, SSA
   should establish a systems control to ensure compliance. If not, SSA should
   reassess its policy accordingly.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix C.




                                          Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                           Appendix A

Acronyms
DHS           Department of Homeland Security
OIG           Office of the Inspector General
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSN           Social Security Number
SSNAP         Social Security Number Application Process
U.S.C.        United States Code
                                                                       Appendix B

Scope and Methodology
To achieve our audit objectives, we:

•   Interviewed representatives from the Social Security Administration’s (SSA) Offices
    of Earnings, Enumeration & Administrative Systems, and Income Security Programs.

•   Reviewed applicable laws, regulations, and SSA policies and procedures.

•   Contacted eight field offices and two Social Security Card Centers in nine SSA
    regions and the International Benefits Office at SSA Headquarters. We selected
    offices based on geographic diversity and the volume of original Social Security
    number (SSN) applications processed.

•   Obtained a data extract from SSA’s enumeration history files for the period
    April through June 2010. From this extract, we identified a population of
    344,422 completed original SSNs. From this population, we randomly selected a
    sample of 50 SSNs.

In conjunction with our audit, the Office of the Inspector General’s Technical Services
Division reviewed SSA testing/validation-related documentation and conducted tests of
the Social Security Number Application Process (SSNAP) controls in SSA’s Validation
Region.

The SSA entities reviewed were the Offices of Systems and Retirement and Disability
Policy. We conducted our work at the Office of Audit in Birmingham, Alabama. We
primarily relied on SSA’s SSNAP Transaction History files to complete our review and
determined the data used in the report were sufficiently reliable given the audit objective
and use of the data. We conducted our work from August through December 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      March 30, 2011                                                            Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "The Social Security Number Application
           Process" (A-08-11-11121)--INFORMATION

           Thank you for the opportunity to review the subject report. Please see our attached comments.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Frances Cord, at extension 65787.

           Attachment:
           SSA Response




                                                           C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY NUMBER APPLICATION PROCESS”
A-08-11-11121

Thank you for the opportunity to review the subject report. We offer the following responses to
your recommendations.

Recommendation 1

Enhance SSNAP to identify instances in which field office personnel enter an applicant’s age
and/or identity information that conflicts with their immigration status. For example, SSA could
add an alert in SSNAP that would inform field office personnel when this occurs.

Recommendation 2

Continue SSNAP enhancements that would help enforce secondary evidence of identity
requirements. For example, SSA could add drop-down menus in SSNAP to help field office
personnel determine whether secondary identity documents meet SSA evidence requirements.

Response to Recommendations 1 and 2

We agree. We will consider your recommendations as we continue to evaluate and refine
SSNAP. However, we must weigh your recommendations against other planned improvements
to decide which improvements to pursue based on its added value and the availability of systems
resources.

Recommendation #3

Determine whether requiring annotation in SSNAP’s “Remarks” field with “NO OTHER
EVIDENCE AVAILABLE” when a refugee, parolee, or victim of a severe form of trafficking
has only an immigration document as evidence of age, identity, and lawful noncitizen status is
essential to the enumeration process. If so, SSA should establish a systems control to ensure
compliance. If not, SSA should reassess its policy accordingly.

Response

We continue to follow the policies found in Program Operations Manual System, Records
Maintenance 10210.020, requiring at least one form of evidence from these individuals, and we
will reassess whether it is necessary to continue annotating SSNAP’s “Remarks” field, “NO
OTHER EVIDENCE AVAILABLE.”




                                              C-2
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, Atlanta Audit Division

   Jeff Pounds, Audit Manager, Birmingham Office of Audit

Acknowledgments

In addition to those named above:

   Charles Lober, Senior Auditor

   Kathy Yawn, Senior Auditor

   Rajula Chandran, Senior IT Specialist

   Melinda Padeiro, Senior Auditor

   Alla Resman, IT Specialist

   Charles Zaepfel, IT Specialist

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-08-11-11121.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
